<html>
<title> - Department of Defense Appropriations for Fiscal Year 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]




 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                       WEDNESDAY, MARCH 18, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:32 a.m. in 
room SD-192, Dirksen Senate Office Building, Hon. Thad Cochran 
(chairman) presiding.
    Present: Senators Cochran, Shelby, Murkowski, Blunt, Moran, 
Durbin, Reed, and Schatz.

                         DEPARTMENT OF DEFENSE

                         Missile Defense Agency

STATEMENT OF VICE ADMIRAL JAMES D. SYRING, UNITED 
            STATES NAVY, DIRECTOR

               OPENING STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Good morning. We welcome everyone to a 
meeting of our Subcommittee on Defense Appropriations where we 
are reviewing the fiscal year budget request of the 
administration for the Missile Defense Agency (MDA).
    We are very pleased to welcome our distinguished witness, 
Admiral James Syring, who is Director of the Missile Defense 
Agency, a very important responsibility, and we appreciate your 
distinguished service.
    The President has submitted a request for $8.1 billion for 
the Missile Defense Agency, which is an increase of 3 percent 
over last year's enacted level.
    The statement that has been submitted to the committee will 
be printed in the hearing record.

                           PREPARED STATEMENT

    In addition, the budget proposes improvements and upgrades 
to the ground-based midcourse defense system and regional 
defense capabilities.
    The request exceeds the defense spending caps mandated by 
the 2011 Budget Control Act by more than $37 billion. We look 
forward, however, to working with our distinguished witness and 
others to develop a bill that will provide funding in fiscal 
year 2016 that will enable the Missile Defense Agency to 
successfully carry out its responsibilities.
    [The statement follows:]
               Prepared Statement of Senator Thad Cochran
    Good morning, the Subcommittee will come to order. Our hearing 
today will review the fiscal year 2016 budget request of the Missile 
Defense Agency. We are pleased to welcome Vice Admiral James Syring, 
the Director of the Missile Defense Agency.
    For fiscal year 2016, the President's budget requests $8.1 billion 
for the Missile Defense Agency, an increase of 3 percent over last 
year's enacted level. This proposal recommends funds for homeland and 
regional defense priorities, including fielding 44 operational Ground-
Based Interceptors by 2017, and two international Aegis Ashore sites by 
the ends of 2015 and 2018, respectively. In addition, the budget 
invests in needed reliability improvements and upgrades to the Ground-
Based Midcourse Defense System and regional defense capabilities.
    The President's fiscal year 2016 budget request exceeds the defense 
spending caps mandated by the 2011 Budget Control Act by more than $37 
billion. If sequestration is triggered in fiscal year 2016, the Missile 
Defense Agency's budget would be reduced by roughly $1.4 billion across 
each individual program and project. The Subcommittee welcomes your 
thoughts on the effects sequestration would have on the Missile Defense 
Agency's goals and programs, and we look forward to working with you to 
develop a fiscal year 2016 appropriations bill that will enable the 
Missile Defense Agency to successfully defend our homeland and regional 
interests in a fiscally responsible manner.
    Finally, I am proud of the role your agency and this committee have 
played in protecting our security interests worldwide. This includes 
investments like the Iron Dome and other systems in Israel, which 
deter, and in some cases, have successfully intercepted regional 
missile and rocket threats.
    Thank you for your testimony this morning. Your full statement will 
be included in the record.
    Now I turn to the Vice Chairman, Senator Durbin, for his opening 
remarks.
    Thank you.

    Senator Cochran. I now am pleased to turn to our 
distinguished vice chairman, Senator Durbin, for any opening 
remarks he would like to make.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Thanks, Chairman Cochran.
    And, Admiral Syring, thank you for being here to discuss 
the 2016 budget request for the Missile Defense Agency. You 
have been given an awesome responsibility to defend the United 
States of America and our troops and allies from missile 
attacks and to do it in a fiscally responsible way.
    Last year was a very important year for your undertaking. 
In June, the Missile Defense Agency had a major test success 
after two failures in 2010. I do not need to tell you because 
we made it a matter of record that there was a lot hanging on 
the success of that test. Had it not turned out as well as it 
did, we might be having a much different hearing today.
    Substantial progress has been made in establishing the 
Aegis offshore site in Romania, to be followed by another in 
Poland beginning next year.
    And for the record, this subcommittee, on a bipartisan 
basis, dramatically increased the funds for the Iron Dome 
missile protection system for Israel by $225 million in 
emergency funds and $175 million in base funds last year at a 
moment when Israel needed it the most, facing rocket attacks 
from Gaza.
    However, there have been some fiscal challenges in 2016. 
The President's budget request for defense is $38 billion over 
the Budget Control Act caps, and we read every day about the 
ongoing battle between the defense hawks and those who are 
deficit hawks. Your budget request is $8.1 billion. 
Sequestration undoubtedly would hit you, and you are going to 
explain to us how, I am sure. I hope to hear from you regarding 
these developments.

                           PREPARED STATEMENT

    We also need to ensure the Missile Defense Agency continues 
to pay attention to a lot of problems that have been with your 
agency for a long time, namely fielding equipment before it was 
adequately flight tested. GAO (Government Accountability 
Office) continues to have concerns there is too much 
concurrency in MDA acquisition, particularly regarding the 
procurement of ground-based interceptors (GBIs) and SM-3 
missiles. Admiral Syring, you have endorsed the concept of 
``fly before you buy'' in the past, and we want to make sure we 
are still meeting that standard, additionally, concerns about 
MDA's testing regime and the operational rigor that is applied. 
We look forward to hearing your thoughts and testimony.
    I apologize in advance if I skip out. I have another 
hearing in Judiciary going on at this same moment. I am trying 
to balance both.
    But thank you for being here.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    Mr. Chairman, I am pleased to join you in welcoming Admiral Syring 
to our hearing on the fiscal year 2016 budget request for the Missile 
Defense Agency (MDA).
    Admiral, you have an important mission: to defend the United States 
and our troops and allies abroad from missile attacks, and to do so in 
as fiscally responsible a manner as possible. It is both 
technologically and fiscally challenging.
    Last year was a very significant year for the Missile Defense 
Agency. In June, MDA had a major test success after two failures in 
2010. There was substantial progress in establishing the Aegis Ashore 
site in Romania, to be followed by another in Poland beginning next 
year. Finally, funding for Iron Dome was increased by $225 million in 
emergency funds, and $175 million in base funds, to counter the rocket 
attacks on Israel from Gaza.
    However, MDA has fiscal challenges in 2016. The President's budget 
request for defense is $38 billion over the Budget Control Act caps. 
Your budget request is $8.1 billion, sequestration would undoubtedly 
have an impact. I hope to hear from you regarding both of these 
developments--what the successful test means for MDA's progress, and 
what effects sequestration might have on the agency's efforts moving 
forward.
    We also need to ensure that MDA continues to pay attention to the 
problems that have plagued it in the past, namely fielding equipment 
before it was adequately flight tested. The Government Accountability 
Office continues to have concerns that there is too much concurrency in 
MDA acquisition programs, particularly regarding the procurement of 
Ground Based Interceptors and SM-3 missiles. Admiral Syring, you have 
endorsed the concept of ``fly before you buy'' in the past--are we 
meeting that standard now? Additionally, there are concerns that MDA's 
testing regime lacks sufficient operational rigor--how is MDA doing in 
this regard?
    Admiral, we look forward to hearing your thoughts on all of these 
issues. Thank you for your testimony this morning and for your service 
to our country.

    Senator Cochran. Admiral, we welcome you to the committee 
and ask you to proceed with your statement.

           SUMMARY STATEMENT OF VICE ADMIRAL JAMES D. SYRING

    Admiral Syring. Thank you, Mr. Chairman, Ranking Member 
Durbin, and distinguished members of the subcommittee, for the 
opportunity to testify today.
    Our budget request for fiscal year 2016 continues the 
development of defenses for our Nation, deployed forces, 
allies, and international partners against spreading and 
increasingly capable ballistic missiles and supports the needs 
of the warfighter. Our plans maintain the commitment to operate 
and sustain homeland defenses, including the planned deployment 
of 40 GBIs (ground-based interceptors) to Fort Greely and 4 
GBIs to Vandenberg for a total of 44 by the end of 2017.
    The successful intercept test, sir, this past June 
demonstrated that we fixed the problem causing the vibrations 
in the inertial measurement unit of the CE-II EKV 
(Exoatmospheric Kill Vehicle).
    Our budget request this year will support test requirements 
as we continue to enhance our stockpile reliability program and 
undertake component aging testing in order to understand and 
maintain the health of deployed systems. The testing plan for 
fiscal year 2016 includes a non-intercept flight test to 
evaluate the alternate divert thrusters and support algorithm 
development for discrimination improvements vital for homeland 
defense. In the following year, we will attempt to intercept an 
ICBM (intercontinental ballistic missile) target for the first 
time.
    We will also continue development of the redesigned kill 
vehicle which I have testified before on the importance of that 
to the future of the fleet for improved reliability, 
availability, performance, and producibility. The first flight 
test of the RKV (Redesigned Kill Vehicle) is planned in 2018 
with an intercept test in 2019 and initial deployment then in 
2020.
    To improve the overall performance of our homeland 
defenses, we completed technical trade studies and defined 
requirements for the Long-Range Discrimination Radar (LRDR) and 
started acquisition planning and preconstruction activities. We 
anticipate contract award for the development, deployment, and 
the initial operation of the LRDR before the end of fiscal year 
2015. Our fiscal year 2016 budget continues the development and 
deployment against short-, medium-, and intermediate-range 
ballistic missiles. Phases II and III of the European Phased 
Adaptive Approach (EPAA) are on schedule, and we will expand 
the phase I protection of our European NATO (North Atlantic 
Treaty Organization) allies against attacks from the Middle 
East.
    This plan includes the deployment of the SM-3 (Standard 
Missile 3) IBs and beginning in 2018 SM-3 Block IIAs on ships 
and at Aegis Ashore sites in Romania and Poland. We plan to 
procure 209 SM-3 IBs by the end of 2016 and will be requesting 
multiyear procurement authorization.
    In support of the EPAA phase III, as you know, MDA is co-
developing the SM-3 IIA missile with the Government of Japan 
and upgrading the Aegis BMD (Ballistic Missile Defense) weapons 
system to increase the defended area and the probability of 
defeating larger and more complex threats.
    We also plan to deliver 48 additional THAAD (Terminal High-
Altitude Area Defense) interceptors to the Army for a total of 
155 delivered by 2016 to support the THAAD battery deployment 
based on warfighter demand and operational need.
    Finally, our advanced technology, research, and development 
is critical if we are going to address gaps in the BMDS 
(Ballistic Missile Defense System). It is vital we continue to 
provide the warfighters the most advanced, cost-effective, and 
reliable weapons systems they need to do their jobs. In 2016, 
we will continue our discrimination sensor weapons technology 
common kill vehicle, which includes multi-object kill vehicles 
and technology maturation initiatives. These investments will 
help us to deploy a future BMDS architecture more capable of 
discriminating and killing reentry vehicles with a high degree 
of confidence.
    In the near term, our directed energy research is focused 
on missile defense applications at low power to provide a 
forward tracking capability. This low power research will build 
the foundation for achieving boost phase defense with higher 
power lasers in the next decade.
    Mr. Chairman, this budget request balances investment in 
homeland and regional missile defense capabilities while 
pursuing advanced technology to pace the emerging threat. This 
year and next, we will continue expanding interceptor 
inventories, integrating new sensors, sensor upgrades, and 
technology into the architecture and deploying C2BMC (Command, 
Control, Battle Management and Communications) capabilities to 
the warfighter.

                           PREPARED STATEMENT

    We have several critical development and operational flight 
tests coming up. In total, in fiscal year 2015, there are 12 
tests in total.
    MDA will continue to aggressively pursue cost reduction 
measures through competition, partnering, and cooperation as we 
deliver the best missile defense capabilities to protect our 
Nation, our deployed forces, our friends and allies at the 
lowest cost to the American taxpayer.
    Thank you, and I look forward to your questions.
    [The statement follows:]
           Prepared Statement of Vice Admiral James D. Syring
    Good morning, Chairman Cochran, Ranking Member Durbin, 
distinguished Members of the subcommittee. I appreciate this 
opportunity to testify before you today. Our current budget request of 
$8.127 billion for fiscal year 2016 will continue the development of 
defenses for our Nation, deployed forces, allies, and international 
partners against increasingly capable ballistic missiles. The fiscal 
year 2016 missile defense program will continue to support the 
warfighter and needs of the Combatant Commands (COCOMs) with the 
development and deployment of interceptors, sensors, and the command, 
control, battle management and communications (C2BMC) system for the 
integrated Ballistic Missile Defense System (BMDS). Our request for 
fiscal year 2016 will improve and expand homeland and regional missile 
defenses and invest in advanced technology development and future 
capabilities to counter the increasingly complex threat.
                        ballistic missile threat
    The threat continues to grow as our potential adversaries acquire a 
greater number of ballistic missiles, increasing their range, 
incorporating BMD countermeasures, and making them more complex, 
survivable, reliable, and accurate. Space-launch activities involve 
multistage systems that further the development of technologies for 
intercontinental ballistic missiles (ICBMs). In addition to the Taepo 
Dong 2 space launch vehicle/ICBM, North Korea is developing and has 
paraded the KN08 road-mobile ICBM and an intermediate-range ballistic 
missile (IRBM) capable of reaching Guam and the Aleutian Islands. As 
part of a series of provocations last year, North Korea conducted 
multiple short- and medium-range ballistic missile launches and 
threatened to conduct additional longer-range launches. Today it fields 
hundreds of Scud and No Dong missiles that can reach U.S. forces 
forward deployed to the Republic of Korea and Japan.
    Iran has publicly stated it intends to launch a space launch 
vehicle as early as this year (2015) that could be capable of 
intercontinental ballistic missile ranges if configured as such. Iran 
also has steadily increased its ballistic missile force, deploying 
next-generation short- and medium-range ballistic missiles (SRBMs and 
MRBMs) with increasing accuracy and new submunition payloads. Tehran's 
overall defense strategy relies on a substantial inventory of theater 
ballistic missiles capable of striking targets in southeastern Europe. 
Iran continues to develop more sophisticated missiles and improve the 
range and accuracy of current missile systems, and it has publicly 
demonstrated the ability to launch simultaneous salvos of multiple 
rockets and missiles. Demonstrating it is capable of modifying 
currently deployed ballistic missile systems, Iran has flight-tested a 
Fateh-110 ballistic missile in an anti-ship role. By adding a seeker to 
improve the missile's accuracy against sea-based targets, Iran could 
threaten maritime activity throughout the Persian Gulf and Strait of 
Hormuz.
                       support for the warfighter
    Our overriding goal is to support the warfighter, which includes 
delivering greater missile defense capability and capacity. With this 
budget we will maintain our commitment to build out homeland defenses 
to 44 Ground Based Interceptors (GBIs) by the end of 2017. We also will 
maintain our commitment to deploy Phases 2 and 3 of the European Phased 
Adaptive Approach (EPAA) on schedule, which will include the deployment 
of Standard Missile-3 (SM-3) Block IB missiles and SM-3 Block IIAs 
(first available in 2018) on ships and at Aegis Ashore sites in Romania 
(2015) and Poland (2018). We currently have 33 Aegis BMD ships, on the 
way to 35 by the end of fiscal year 2016. We are continuing efforts to 
improve the performance of the Aegis Weapons System and plan to procure 
a total of 209 SM-3 Block IBs by the end of fiscal year 2016. We 
announced a Technical Capability Declaration this past December for the 
second forward-based X-band AN/TPY-2 radar in Japan, which improves 
homeland and regional defense capabilities and increases our global 
operational AN/TPY-2 radar posture. By the end of fiscal year 2016, MDA 
is scheduled to deliver 48 additional Terminal High Altitude Area 
Defense (THAAD) interceptors, for a total of 155 interceptors fielded, 
and we are continuing our support of the operational Guam THAAD 
battery.
    Last year we conducted or participated in several multi-event 
exercises and wargames, which are critically important to the 
warfighter and the intensive engineering efforts across the Agency. In 
response to the continued fielding by U.S. adversaries of air, missile, 
and rocket capabilities, as Technical Authority for Integrated Air and 
Missile Defense (IAMD), MDA is leading the integration of evolving MDA, 
Service, and COCOM command and control capabilities through systems 
engineering analysis and development of technical integration 
requirements and interface control documents. Other IAMD initiatives 
include integrating C2BMC with the Army's Integrated Battlefield 
Control System (IBCS) to exchange ballistic missile data and exploring 
THAAD integration within the IBCS Army architecture.
    We continue to work closely with the Director, Operational Test & 
Evaluation (DOT&E), independent testers, and the Services to develop an 
Integrated Master Test Plan (IMTP) to execute a robust, cost-effective 
flight test program that features operationally realistic conditions 
and integrates U.S. Government stakeholders--to include Soldiers, 
Sailors, Airmen, and Marines--and allies to prove BMD capabilities. We 
have entered a period of unprecedented testing complexity and increased 
testing tempo. Our flight tests will involve increasingly stressful 
threat representative targets as well as longer range interceptors for 
our homeland and regional capabilities. From October 2013 to the 
present, we have executed seven high profile flight tests. In fiscal 
year 2015 we will conduct 12 flight tests, and in fiscal year 2016 
seven flight tests.
                            homeland defense
    MDA remains committed to operating, sustaining, and expanding our 
Nation's homeland missile defenses and requests $1.76 billion for the 
Ground-based Midcourse Defense (GMD) program, or $613 million over our 
PB 2015 request. This budget request will allow us to grow the number 
of currently deployed Ground Based Interceptor (GBI) fleet to 44 by the 
end of 2017, continue flight and system ground testing, continue 
Redesigned Kill Vehicle (RKV) development, enhance the Stockpile 
Reliability Program, modify the current booster to increase 
survivability and hardness to support RKV integration and expand the 
battle space to enable later GBI engagements, upgrade the GMD ground 
system, and deploy upgraded GMD fire control software to enhance our 
ability to use land-based sensor discrimination data.
    The successful FTG-06b intercept test this past June allowed us to 
assess the performance and interoperability of homeland defense weapon 
systems, including GMD, an Aegis BMD ship, the Sea-Based X-band radar 
(SBX), and C2BMC. An Aegis BMD ship acquired an Intermediate Range 
Ballistic Missile (IRBM) target and forwarded the track through C2BMC 
to the GMD fire control system, which developed a weapon task plan that 
the warfighter used to launch a GBI. The SBX acquired the target 
objects and forwarded precision tracks with discrimination data through 
the GMD ground system to the in-flight GBI. The interceptor used SBX 
data to locate the target objects, complete discrimination, and 
successfully intercept the target. Our analysis indicates that all 
components of the system performed as designed. This was the first 
flight test of an operationally configured GBI that demonstrated the 
ability to correctly discriminate and intercept the reentry vehicle in 
the presence of countermeasures. FTG-06b also demonstrated that a 
Capability Enhancement-II (CE-II) exo-atmospheric kill vehicle (EKV) 
with a cradled Inertial Measurement Unit dampens the vibration 
environments experienced during the failure of the FTG-06a flight test 
conducted in December 2010. With this successful flight test we were 
able to resume production of eight planned GBIs in the proven FTG-06b 
configuration.
    We are implementing several fixes to address the failed FTG-07 
flight test in July 2013. While the GBI was in flight, a voltage shift 
caused by battery electrolyte leakage shut down the flight computer and 
prevented EKV separation. We developed EKV software for CE-I GBIs, 
which includes a capability to reset and recover the flight computer 
following a voltage shift. This software was fully tested and is now 
fielded to all deployed CE-Is. New battery and ground ties, once 
tested, will be incorporated in the CE-II Block 1 deliveries beginning 
in fiscal year 2016.
    The next flight test of the GMD system will take place late this 
year. GM CTV-02+ is a non-intercept test of a CE-II GBI to demonstrate 
the performance of alternate divert thrusters in a flight environment 
and test end-to-end discrimination of a complex target scene through 
the GMD fire control loop. The EKV will use Aegis BMD SPY-1, SBX, and 
AN/TPY-2 data for target selection. Data collected from this test will 
be used to evaluate Discrimination Improvements for Homeland Defense 
(DIHD) objectives. At the end of calendar year 2016 we plan to conduct 
FTG-15, which will be the first intercept flight test for the CE-II 
Block 1 GBI and the first intercept of an ICBM range target. Following 
a successful intercept, the plan is to deliver 10 CE-II Block 1 GBIs 
over the next year to achieve our goal of 44 GBIs by the end of 2017.
    In addition to increasing the operational fleet from 30 to 44 GBIs 
by 2017, MDA will complete the refurbishment and reactivation of 
Missile Field 1 at Fort Greely by 2016 to provide sufficient silos for 
44 GBIs. We will deliver eight new CE-IIs in 2015, upgrade eight 
currently fielded CE-IIs in 2016, and deliver 10 new CE-II Block 1 GBIs 
in 2017. Four previously fielded CE-II GBIs will be used for flight and 
Stockpile Reliability testing.
    MDA completed a GBI Fleet Assessment last year that pointed out the 
need for improvements in reliability of the EKV, GBI, and ground 
systems, and we will continue to implement its findings in fiscal year 
2015 and beyond. We have introduced an enhanced Stockpile Reliability 
program to better understand the service life and reliability of the 
fielded fleet and are conducting design and reliability analysis on the 
fielded CE-IIs and booster to establish performance margins. We are 
analyzing the GBIs to identify potential failures modes and reliability 
risks so that we can conduct the right ground tests. These efforts will 
improve confidence in the current GBI fleet and influence our 
development of the next GBI with a Redesigned Kill Vehicle.
    We will continue development of a Redesigned Kill Vehicle (RKV) for 
initial deployment in 2020. The RKV will be a modular design using 
mature subassemblies and components to improve reliability, 
maintainability, producibility, and affordability when compared to the 
current EKV. The program will perform full qualification and 
reliability testing of components and subassemblies. The RKV will 
incorporate performance enhancements in target acquisition and 
discrimination and include on-demand communications. On-demand 
communications enables better use of off-board sensor data and provides 
improved situation awareness for the warfighter. The RKV also will 
include survivability enhancements. The first flight test of the RKV is 
planned for 2018, and the first intercept test is planned for 2019. We 
will acquire two additional boosters beginning in fiscal year 2016 to 
support RKV flight tests.
    This year we will finish construction of the GBI In-Flight 
Interceptor Communication System (IFICS) Data Terminal (IDT) at Fort 
Drum, New York. The east coast IDT will enable communication with GBIs 
launched from Fort Greely, Alaska and Vandenberg Air Force Base in 
California over longer distances and improve defenses for the eastern 
United States.
    MDA will implement upgrades to the GMD ground system to improve 
reliability, maintainability, and eliminate obsolescence problems. The 
existing GMD ground system was built in 2004 using technology developed 
in the 1990s. Without an upgrade, the ground system reliability would 
decay and impact GBI availability to the warfighter. Phase I will 
upgrade the GBI command launch equipment, GMD fire control servers, and 
address obsolescence problems on the IFICS data terminal by 2017. Phase 
II upgrades the GMD communications network and launch systems equipment 
and modifies the IFICS data terminal to support on-demand 
communications with the RKV by 2020.
    Working with our Japanese partners, we completed the deployment of 
the AN/TPY-2 radar in Kyogamisaki in southern Japan to complement the 
radar currently operating in Shariki in northern Japan. This radar and 
a new C2BMC capability will enhance the overall performance of the 
Kyogamisaki and Shariki radars when operating in a mutually supporting 
AN/TPY-2 dual radar mode. We made a Technical Capability Declaration 
for the Kyogamisaki radar this past December. Together with the Shariki 
AN/TPY-2 radar in the north, the new radar will enhance the ability to 
defend our forward deployed forces, Japan, and the U.S. homeland from 
ballistic missile attack by providing improved tracking coverage for 
launches out of North Korea.
    We will continue missile defense upgrades of the Early Warning 
Radars in Clear, Alaska and Cape Cod, Massachusetts. We expect to 
complete the Clear radar upgrade in 2017 and the Cape Cod upgrade in 
2018. In fiscal year 2016 we will continue to support flight testing 
with the SBX to demonstrate improvements to discrimination and debris 
mitigation. Our budget request of $72.9 million for SBX includes funds 
for improving reaction time and conducting contingency operations for 
defense of the homeland. We also plan to support a near-term 
discrimination capability in 2016 and fielding near-term discrimination 
improvements for homeland defense in 2020 to enhance the tracking and 
discrimination capabilities of currently deployed sensors.
    In fiscal year 2016 we request $137.6 million to continue the 
development of the Long Range Discrimination Radar (LRDR), the new 
midcourse tracking radar that will provide persistent coverage and 
improve discrimination capabilities against threats to the homeland 
from the Pacific theater. LRDR will provide larger hit assessment 
coverage enabling improved warfighting capability to manage GBI 
inventory and improving the capacity of the BMDS. We have completed 
technical trade studies and defined requirements for the LRDR and 
started acquisition planning and pre-construction activities. MDA has 
released a Request for Proposal (RFP) for the development, deployment, 
and initial operation of the LRDR. We anticipate contract award before 
the end of fiscal year 2015. In fiscal year 2016 we plan to conduct a 
System Requirement Review and Preliminary Design Review. MDA worked 
closely with Air Force Space Command to verify LRDR's inherent 
capabilities to support the space situational awareness (SSA) mission. 
The Command is jointly exploring system design and operations 
alternatives to maximize the exploitation of LRDR's inherent SSA 
capabilities. Air Force Space Command envisions using LRDR to augment 
the Space Surveillance Network capabilities as a secondary mission if 
it proves viable.
    A Continental United States (CONUS) Interceptor Site (CIS) study, 
conducted in accordance with Section 227 of the fiscal year 2013 
National Defense Authorization Act, determined the following sites were 
viable candidates to be included in the Environmental Impact Statement 
(EIS): Fort Drum, New York; Portsmouth SERE Training Area, Maine 
(Rangley); Camp Ravenna, Ohio; and Fort Custer Combined Training 
Center, Michigan. The Department is conducting EIS activities that will 
evaluate each of the four candidate sites, to include potential impacts 
to land use, water resources, air quality, transportation, 
socioeconomics and other factors established by the National 
Environmental Policy Act. The EIS will take approximately 30 months and 
should conclude in 2016. There has been no decision by the Department 
to move forward with an additional CONUS interceptor site. The current 
GBI sites at Fort Greely and Vandenberg AFB provide capability 
necessary to protect the U.S. homeland against the current and 
projected ICBM threat from North Korea as well as the future Iranian 
ICBM threat should it emerge. Even though an additional CONUS 
interceptor site would add battle space and interceptor capacity, a 
decision to construct the new site would come at a significant material 
development and service sustainment cost. Near-term, upgrading the kill 
vehicle on the GBI and enhancing the homeland defense sensor network 
are higher priorities and prerequisites for improving protection 
against limited ICBM attack.
                           regional defenses
    Deployment of regional defenses to protect our deployed forces, 
allies and international partners remains one of our top priorities. 
Our fiscal year 2016 budget request funds the continued development and 
deployment of defenses against SRBMs, MRBMs, and IRBMs in support of 
Combatant Commanders' near-term and future priorities and supports the 
President's commitment to EPAA.
Terminal High Altitude Area Defense
    Today, four Terminal High Altitude Area Defense (THAAD) Weapon 
System Batteries are delivered, with the fifth planned for activation 
this year. To meet the demand from combatant commanders for THAAD, in 
fiscal year 2014, MDA accelerated procurement of THAAD Battery 7 for 
delivery in fiscal year 2017, 2 years earlier than previously planned. 
We also completed the development and fielding of THAAD Software Build 
1.4, which includes critical updates to weapon system components and 
Information Assurance update. MDA also continued its support of the 
first deployed THAAD battery in Guam, exceeding the Army's required 
operational readiness rate.
    This year THAAD will participate in two flight tests, FTT-18 and 
FTO-02. In FTT-18 THAAD will demonstrate an intercept of a separating 
IRBM target using the THAAD radar, launcher, fire control and 
communication, interceptor operations and engagement functions. In FTO-
02, Event 2, THAAD will engage a SRBM and demonstrate advanced radar 
algorithms. During this operational test of our regional defense 
architecture, which will include the attempted intercept of an MRBM and 
air-breathing target by Aegis BMD, THAAD will demonstrate a layered 
defense capability.
    For fiscal year 2016, MDA is requesting $464.1 million for THAAD 
procurement, which includes the purchase of 30 THAAD interceptors and 
procurement of training devices for the THAAD institutional training at 
Fort Sill, OK. By the end of fiscal year 2016, MDA will deliver an 
additional 48 THAAD interceptors to the U.S. Army, for a total of 155 
interceptors delivered. We will continue to support the forward 
deployed THAAD battery in Guam. We are requesting $228.0 million in 
RDT&E funding in fiscal year 2016 as part of the continued development 
of THAAD capabilities, and begin concept development and risk reduction 
activities for THAAD follow-on capabilities. These activities will 
explore and mature the design concept of expanding THAAD system 
interoperability with air and missile defense systems, and expanding 
the battlespace and defended area of the current baseline THAAD Weapon 
System. We are also requesting $63.7 million for THAAD operation and 
maintenance for 6 delivered batteries.
Aegis Ballistic Missile Defense
    In fiscal year 2014, MDA continued to expand global BMD capability 
for the Aegis Fleet. Together with the U.S. Navy, we completed four BMD 
Weapons System installations on Aegis ships--one Aegis BMD 3.6 ship and 
three Aegis BMD 4.0 ships--and we commenced upgrades on existing BMD 
ships, two from 3.6 to 4.0 and one from 3.6 to Aegis Baseline 9.C1 with 
BMD 5.0CU. We now have a total of 33 BMD capable Aegis ships in the 
Fleet. We continued delivery of Standard Missile-3s to the Fleet, 
including 29 Block IAs and 26 Block IBs.
    In fiscal year 2014, MDA conducted several critical flight tests to 
prove the operational capability of the Aegis BMD weapon system. In 
FTM-22, we successfully engaged and destroyed an MRBM target using the 
Aegis BMD 4.0 weapon system and an SM-3 Block IB. This test exercised 
the second-generation Aegis BMD 4.0 weapon system and supported 
production decisions for the SM-3 Block IB by completing developmental 
and operational testing for both the weapon system and missile. With 
the successful completion of DOT&E testing requirements, Aegis BMD 4.0 
and the SM-3 Block IB were found to be operationally suitable and 
effective. FTM-22 was also the final flight test executed by the USS 
Lake Erie, the BMD test ship for over 10 years.
    We also brought ballistic missile defense flight testing back to 
the east coast in fiscal year 2014. In FTX-18 we successfully simulated 
engagements against a raid of three short-range targets using the Aegis 
BMD 4.0 Weapons System and simulated SM-3 Block IBs to evaluate the 
effectiveness and suitability of the weapon system in a raid 
environment off the coast of Virginia at NASA's Wallops Island 
facility.
    As construction began at the Aegis Ashore site in Romania, we 
conducted the first Controlled Test Vehicle at the Aegis Ashore Missile 
Defense Test Complex at the Pacific Missile Range Facility (PMRF) in 
Kauai, HI. This flight test proved the design of the Aegis Ashore 
system and the ability to launch an SM-3 from land. The first Aegis 
Ashore intercept test from PMRF will occur in the third quarter of this 
year to support turn-over of the Romanian site to the Navy for 
operation.
    In its homeland defense role, Aegis BMD executed long range 
surveillance and track to provide data for the GBI launch in FTG-06b. 
In the test, USS Hopper, with the BMD 4.0 weapon system, acquired the 
target and sent track data to the BMDS Command, Control, Battle 
Management and Communications system, directly contributing to 
successful intercept of the target.
    This past fall we conducted two operationally representative tests 
for certification of the Navy's Aegis Modernization Baseline 9 weapon 
system. In FTX-20, we used our new MRBM target to exercise several BMDS 
sensors and C2BMC. This was also the first tracking exercise for the 
new Navy/MDA Integrated Air and Missile Defense Baseline 9 test ship, 
USS John Paul Jones. A couple of weeks later, in FTM-25, USS John Paul 
Jones launched an SM-3 Block IB to intercept an SRBM target while 
simultaneously launching two SM-2 Block IIIAs against two air-breathing 
threats, successfully exercising the Navy's Integrated Air and Missile 
Defense capability inherent in Baseline 9.
    In fiscal year 2016, we will continue our commitment to develop, 
test, and deliver global naval capability to the warfighter and support 
defense of our deployed forces and NATO European allies through 
delivery of EPAA Phases 2 and 3. We request $448.0 million in fiscal 
year 2016 to procure 40 SM-3 Block IBs, for a total of 209 procured and 
107 delivered by the end of fiscal year 2016. In anticipation of fiscal 
year 2016 and beyond Multiyear Procurement Authorization for the SM-3 
Block IB, MDA requests $147.8 million in economic order quantity for 
missile components for fiscal year 2016-2019 Block IB multiyear 
procurements. By moving to a multiyear procurement, we may realize an 
estimated cost savings of up to 14 percent across the FYDP. To 
recertify SM-3 rounds which have been previously delivered and deployed 
to the Fleet, MDA requests $19.8 million for sustainment of these 
assets.
    We request $172.6 million for the SM-3 Block IIA cooperative 
development effort with the Japan Ministry of Defense. In fiscal year 
2014, the SM-3 Block IIA completed Propulsion Test Vehicle-01, in which 
the missile and new composite canister both demonstrated successful and 
safe ignition and egress from the vertical launching system. Upon 
completion of this test and the system level critical design review, 
the SM-3 Block IIA transitioned into the integration and testing phase 
and will execute the first controlled test vehicle flight test in third 
quarter fiscal year 2015. Along with a total of five flight tests for 
the SM-3 Block IIA through fiscal year 2018, fiscal year 2016 will 
focus on an extensive ground test campaign to prove system design and 
missile capability. We are committed to delivering the SM-3 Block IIA 
to the Fleet to meet global threat requirements, and specifically to 
support EPAA Phase 3.
    MDA is strongly committed to further enhancing capability of the 
Aegis BMD weapon system to give Sailors the tools needed to 
successfully execute their mission. MDA requests $40.7 million for the 
BMD 4 series weapon systems to bring advanced threat and raid scenario 
capability to the legacy Aegis BMD Fleet. As we wrap up BMD 5.0CU 
development, MDA has prioritized delivering BMD 5.1 capability on 
schedule and requests $180.6 million to continue software development 
and testing to certify in fiscal year 2018 and meet the delivery 
timeline of the SM-3 Block IIA missile for deployment on ships and at 
Aegis Ashore sites. In addition to weapon system development, MDA 
requests $110.9 million to procure weapon system equipment for 
installation and upgrade to the BMD Fleet and $12.6 million to sustain 
BMD specific equipment on the existing Fleet.
    We also continue development of a Sea Based Terminal capability to 
provide protection of maritime forces against observed or demonstrated 
advanced anti-ship ballistic missiles and increased layered defense for 
forces ashore. Using an incremental development approach, we are 
incorporating BMD capability into the Navy's Baseline 9 architecture, 
to include terminal defense with the SM-6 guided missile and the BMD 5 
series weapon systems. In 2014, we completed Sea Based Terminal 
Increment 1 missile (SM-6 Dual I) software build 1, and we demonstrated 
its performance in a simulated environment. We plan to test and certify 
the first increment of Sea Based Terminal capability in fourth quarter 
fiscal year 2015 in four Multi-Mission Warfare events, with follow-on 
performance testing in fiscal year 2016. Sea Based Terminal Increment 2 
is on schedule to be certified and operational in 2018.
European Phased Adaptive Approach
    We will continue to expand the EPAA to provide additional coverage 
of European NATO territory from Iranian ballistic missile threats by 
investing resources for EPAA development, testing and deployment. EPAA 
Phase 1 was implemented in 2011 with the fielding of an AN/TPY-2 radar 
in Turkey and stationing of an Aegis BMD ship in the Eastern 
Mediterranean.
    MDA is on schedule to deliver EPAA Phase 2 by the end of 2015, 
which will enhance U.S. and NATO capabilities with the addition of more 
capable Aegis BMD SM-3 Block IBs and upgraded Baseline 9 weapon system 
with BMD 5.0CU. Phase 2 will include deployment of Aegis Ashore to 
Romania with capability to launch both SM-3 Block IA and IB variants 
and upgraded versions of the Aegis BMD weapon system. Required military 
construction, installation, integration and testing activities will be 
complete for technical capability declaration in 2015. After having 
tested the system at the Moorestown, New Jersey site in 2014, the 
deckhouse, including all weapon system equipment was disassembled, 
packed and shipped to Romania. MDA requests $33.4 million in fiscal 
year 2016 to complete site activation, integration, and testing of the 
system in-country and to maintain the test site at PMRF to support 
system-wide testing for Phase 2 deployment. We are on track to turn 
over Aegis Ashore Romania to the Navy, and in fiscal year 2016 we have 
requested $13.9 million for sustainment of the system once it is 
operational. MDA also completed installations and upgrades to the BMD-
capable multi-mission ships that are shifting homeports from Norfolk, 
VA to Rota, Spain, which will support the EPAA Phase II architecture. 
The homeport transfer of four multi-mission Aegis BMD ships to Rota, 
Spain began in 2014 with the USS Donald Cook and USS Ross. The 
remaining two Aegis BMD ships, USS Porter and USS Carney, will transfer 
this year.
    EPAA Phase 3 will improve defensive coverage against medium- and 
intermediate-range threats with the deployment of a second Aegis Ashore 
site in Poland, equipped with the BMD 5.1 weapon system and capability 
to launch SM-3 Block IIAs. Construction at Redzikowo, Poland is 
expected to begin in fiscal year 2016. We request $30.6 million in 
fiscal year 2016 for procurement of Aegis Ashore equipment and $169.2 
million for the construction of the Aegis Ashore site in Poland. We 
need this funding to complete this site by the end of 2018.
Command, Control, Battle Management, and Communications and Sensors
    C2BMC provides persistent tracking, cueing, discrimination, and 
fire control quality data to Aegis BMD, GMD, THAAD, and coalition 
partners to support homeland and regional defense objectives. Last June 
we successfully forwarded Aegis BMD system track data through the C2BMC 
system to the GMD fire control system during FTG-06b. We continue to 
support warfighter command and control and battle management needs 
across the globe by providing the strategic BMD planner, which provides 
Combatant Commanders situational awareness tools to support weapons 
release authority for homeland defense and control and tasking of 
forward-based AN/TPY-2 radars. C2BMC operators and maintainers are 
deployed forward in some of the world's highest threat spots and 
continue to provide around-the-clock support to the local commanders. 
As the BMDS integrating element, C2BMC has also demonstrated proven 
interoperability across regional BMD architectures.
    In addition to continuing the enhancement of global BMD survivable 
communications and support for operations and sustainment of C2BMC at 
fielded sites, this year we will integrate Space Based Infrared System 
Increment 2 capabilities into C2BMC to support cueing of BMD sensors 
worldwide. We have initiated a Space Based Kill Assessment (SKA) 
demonstration that will host sensors on commercial satellites to 
collect data on missile intercepts, make an independent kill 
assessment, and pass that information on to the BMDS to support a 
multi-sensor kill assessment of the target.
    The Services and COCOMs, with logistical support from MDA, are 
operating forward based X-band radars (AN/TPY-2(FBM)) in Japan, Israel, 
Turkey, and United States Central Command. All of these radars 
contribute to regional defense, and some, including the second AN/TPY-2 
radar deployed to Japan last year, also provide a significant 
contribution to the defense of the U.S. homeland. Last year we also 
continued our AN/TPY-2 (Terminal Mode) support to warfighters on Guam. 
We accepted AN/TPY-2 Radar #9, providing it to THAAD Battery #4, and 
AN/TPY-2 Radar #10. We also awarded a production contract for AN/TPY-2 
Radar #12, and for additional spares. In fiscal year 2016 we plan to 
develop and test advanced discrimination algorithms to counter evolving 
threats to provide additional capability to the Combatant Commanders as 
well as close Materiel Release conditions for the Terminal Mode and 
Forward-Based Mode AN/TPY-2 radars. We plan to deliver Radar #10 to 
THAAD Battery #6, start production of an Antenna Equipment Unit Float, 
and complete production of AN/TPY-2 Radar #12, which will be allocated 
to THAAD Battery #7.
    We request $536.5 million in fiscal year 2016 to develop, deploy 
and test BMDS sensors (includes $138 million for the continued 
development of the Long Range Discrimination Radar), and $187.5 million 
to sustain the nine AN/TPY-2 radars and support the UEWRs and Cobra 
Dane radar. We will continue communications support for the AN/TPY-2 
radars and C2BMC upgrades. We request $450.1 million in fiscal year 
2016 to develop, test, field, sustain, and operate all C2BMC spirals. 
We also will integrate additional space sensors into the BMDS and 
enhance the track and discrimination capabilities of C2BMC to provide 
fire control quality data to BMD weapon systems in support of homeland 
and regional defense. We request $31.6 million for continued operation 
of the Space Tracking and Surveillance System in fiscal year 2016.
                      developing new capabilities
    MDA is developing fiscally sustainable, off-setting technologies to 
address gaps in the BMDS and extend our dominance in missile defense. 
MDA's goal for these investments is to deploy a future BMDS 
architecture more capable of discriminating and destroying a reentry 
vehicle with a high degree of confidence.
    In 2014 and 2015, the warfighters emphasized the importance of 
improving discrimination capability, the missile defense function that 
distinguishes between lethal and non-lethal objects, in order to reduce 
the need for large, unaffordable interceptor inventories. Radars and 
electro-optical/infrared (EO/IR) sensors are central to this 
capability. However, sensors require sufficient sensitivity and 
resolution to measure features useful for inferring which objects are 
lethal or non-lethal. Between now and 2020, we will use available 
technology to improve existing sensors, battle management and fire 
control, and kill vehicles. After 2020, our plan is to field new 
advanced EO/IR sensors and upgrade discrimination capabilities based on 
our new technology investments.
    Relying purely on terrestrial radars for precision tracking and 
discrimination of the threat is a potential weakness the enemy could 
exploit in the future. Adding persistent electro-optical sensors to the 
BMDS architecture is a high payoff solution for this gap. Last fall 
during FTM-25 we accelerated the Discrimination Sensor Technology 
flight test program by nearly 6 months to prove that our Aegis Weapon 
System could launch a Standard Missile based solely on tracks generated 
by remote sensors on Unmanned Aerial Vehicles (UAVs). MDA requests 
$28.2 million for our Discrimination Sensor Technology development and 
test plan to provide a cost-effective, stepping stone towards our goal 
of achieving persistent discrimination coverage of enemy missiles in 
all theaters, including ICBMs targeting the homeland. In fiscal year 
2016, we plan to upgrade UAV-borne sensors and demonstrate even greater 
discrimination capability in conjunction with Aegis flight testing in 
the first quarter fiscal year 2017 as a precursor to the development 
and test of a prototype advanced sensor under our Technology Maturation 
Initiatives program element.
    We request $45.4 million in Weapons Technology to continue 
development, integration, and testing of our high-powered directed 
energy program to build the foundation for the next-generation UAV-
borne laser system. A UAV-borne laser would be capable of acquiring, 
tracking and eventually destroying an enemy missile at a much lower 
cost than the existing BMDS. Within the Directed Energy project, we 
will develop and demonstrate the technology necessary to scale laser 
power jointly with our Air Force and DARPA partners. The Massachusetts 
Institute of Technology's Lincoln Laboratory (MIT/LL) Fiber Combining 
Laser achieved 34 kilowatts continuous power in October 2014, a record 
for fiber combined lasers. The Lawrence Livermore National Laboratory 
(LLNL) achieved similar success with their Diode Pumped Alkali Laser 
system, reaching five kilowatts last year. In our effort to mature high 
altitude, low Mach UAVs for directed energy applications, we 
successfully completed five Phantom Eye flights at the Air Force's 
Edwards Flight Test Center in California. The Phantom Eye demonstrator 
achieved a record altitude of 53,241 feet and collected over 33 hours 
of data from launch to landing.
    In fiscal year 2016, MIT/LL will conduct a Fiber Combining Laser 
critical design review and begin fabrication and integration of a 
lighter, more compact Fiber Combining Laser system, driving the weight 
of the system down from five kilograms per kilowatt to one kilogram per 
kilowatt. LLNL will demonstrate a DPAL system at 30 kilowatts average 
power, six times more powerful than ever achieved by a hybrid laser.
    Within the Interceptor Technology project, MDA develops technology 
to enhance the hit-to-kill capability within current and future BMDS 
architectures. MDA will invest in cutting edge technology for the 
competitive development of the next generation, solid Divert and 
Attitude Control System (DACS) for the Multi-Object Kill Vehicle. We 
will also investigate the suitability of rail gun technology for 
missile defense missions.
    MDA requests $96.3 million for Technology Maturation Initiatives to 
build on the successes in weapons technology and discrimination sensor 
technology. Airborne discrimination sensors and low power tracking 
lasers are sufficiently mature to develop flight prototypes that 
address complex tracking and discrimination challenges from evolving 
threats to the homeland. In fiscal year 2016, MDA will incorporate an 
advanced sensor into the tactically proven Multispectral Targeting 
System and MQ-9 Reaper combination to prove precision track and 
discrimination performance of airborne sensors at strategic ranges, or 
thousands of kilometers. MDA will also contract with industry for the 
design of a UAV-borne laser demonstrator to quantify the target 
acquisition, tracking, and handover performance required for boost 
phase missile defense under realistic conditions.
    MDA requests $46.7 million for the Common Kill Vehicle Technology 
effort. Last year, we began the first phase of a two phase, development 
strategy for the next generation of our exo-atmospheric kill vehicles. 
In that first phase, we defined concepts and developed requirements for 
a new Redesigned Kill Vehicle for our ground-based interceptor program. 
In fiscal year 2016, we are implementing phase II of that strategy 
during which we will work jointly with industry to define concepts for 
deploying multiple kill vehicles from a single booster. This year we 
plan to award several contracts with industry to define concepts for 
Multi-Object Kill Vehicles (MOKV). In parallel, we will reduce 
technical risk in several areas that are critical to making this 
revolutionary concept a reality. For example, we will develop and test, 
by 2017, MOKV command and control strategies in both digital and 
Hardware-in-the-Loop venues that will prove we can manage the 
engagements of many kill vehicles on many targets from a single 
interceptor. We will also invest in the communication architectures and 
guidance technology that support this game changing approach. 
Ultimately, these Multi-Object Kill Vehicles will revolutionize our 
missile defense architecture, substantially reducing the interceptor 
inventory required to defeat an evolving and more capable threat to the 
Homeland.
    MDA requests $17.4 million for Advanced Research and development 
that capitalizes on the creativity and innovation of the Nation's small 
business community and academia to enhance the BMDS. We are also 
fostering research between U.S. and foreign universities of allied 
nations through international cooperative science and technology 
projects. We awarded 216 new contracts for innovative new research in 
eight missile defense related topics last year.
    MDA also requests $12.1 million for the Advanced Concepts & 
Performance Assessment effort, which models the capability of advanced 
BMD technology to address evolving threats to the warfighter. The 
request will fund the digital simulation and hardware-in-the-loop 
framework and models required for testing of the Airborne Advanced 
Sensor, Kill Vehicle Modular Open Architecture test bed, and maturing 
sensor fusion algorithms.
                       international cooperation
    The fiscal year 2016 budget request includes funding for regional 
missile defense capabilities in order to protect U.S. forces, reassure 
allies and partners, and build cooperative regional security 
architectures. MDA is engaged with over twenty countries and 
international organizations, such as NATO. MDA remains committed to 
expanding work with our international partners, to include conducting 
joint analyses to support partner missile defense acquisition 
decisions, cooperative research and development projects, deployments, 
Foreign Military Sales (FMS), and co-production. Our major 
international efforts reflect the Department's goals in the Asia-
Pacific, Middle East, and Europe and will help implement EPAA, build 
partner BMD capacity, and support the strategic shift to Asia-Pacific.
    As allies and partners invest in their own missile defense 
capabilities, this will enable us to build more effective regional 
security architectures and complement U.S. regional missile defense 
capabilities. MDA is currently executing an FMS case with the United 
Arab Emirates for two THAAD batteries and accompanying launchers, 
radars, and interceptors. This calendar year, we will deliver the first 
THAAD battery to our UAE partners to begin New Equipment Training. We 
continue to be actively engaged with several nations, particularly 
those in the Gulf region, to provide program information and cost data 
that may inform future decisions to procure THAAD.
    We continue to have a very strong cooperative missile defense 
partnership with Israel. In fiscal year 2014 the Israel Missile Defense 
Organization (IMDO) and MDA achieved a second successful intercept 
using the David's Sling Weapon System to defeat shorter-range ballistic 
missiles and conducted the second fly-out of the Arrow-3 upper tier 
interceptor, demonstrating its key functional capabilities in-flight. 
Arrow-3 is intended to intercept longer-range threats. The Arrow Weapon 
System 2 is a currently fielded capability operated by the Israeli Air 
Force. This past September, IMDO and MDA conducted an intercept test of 
the Arrow-2 interceptor missile against a MRBM target over the 
Mediterranean. The Department also reached agreement in March 2014 with 
Israel regarding coproduction of the Iron Dome defense system. The 
agreement garnered approximately $263 million in U.S. work share for 
coproduction of Iron Dome components. We are requesting $55.0 million 
to procure Iron Dome radars and associated equipment.
    MDA and our Japanese counterparts continue to make significant 
progress with the SM-3 IIA interceptor, our largest co-development 
effort. This development work, which remains on track for first 
delivery in the 2018 timeframe, would expand extended deterrence to our 
friends and allies and establish an important vehicle for closer 
defense cooperation ties. These cooperative activities enable U.S. 
partners to be less vulnerable to coercion and ballistic missile 
attack. In addition, our strong partnership with Japan enabled a 
technical capability declaration of the second AN/TPY-2 radar now 
located at the Japan Air Self-Defense Force (JASDF) base in 
Kyogamisaki, Japan in just over 2 years from the initial announcement 
to proceed. We are also working with other strategic partners in the 
region.
    In addition to implementing our EPAA commitments to our NATO 
Allies, we continue to work with NATO to ensure U.S. C2BMC and NATO 
command and control networks are fully interoperable. We have 
successfully demonstrated interoperability between NATO and the U.S. 
command and control networks. MDA will continue to engage our NATO 
Allies to address international cooperation in missile defense.
               cybersecurity/supply chain risk management
    We are very cognizant of the growing cyber threat and aggressively 
working to ensure the Nation's missile defenses will be able to operate 
in a highly contested cyber environment. Potential adversaries are 
developing cyber forces as part of their military structure and 
integrating them into their overall strategy. We are working with the 
Armed Services, the Combatant Commands, especially Strategic Command's 
USCYBERCOM, and other agencies in DOD and the Federal Government to 
counter this growing threat.
    We are improving the cyber hygiene of our missile defense 
capabilities by ensuring our cybersecurity infrastructure has the 
latest security upgrades. We are assessing our systems, suppliers, and 
acquisition processes and ensure our critical software and hardware are 
strongly configured and trusted to lessen the risk of malicious 
activities. We have a rigorous cyber and Supply Chain Risk Management 
inspection program to examine everything about our systems from the 
trusted supply chain to the fielded capability. This helps us ensure 
the highest possible compliance levels. In May 2014, DISA Field 
Security Operations conducted a USCYBERCOM-directed Command Cyber 
Readiness inspection on MDA's classified networks at MDA's Missile 
Defense Integration and Operations Center in Colorado. MDA received an 
``Excellent'' score. In June 2014 the MDA Computer Emergency Response 
Team (CERT) was inspected as a Tier 2 Computer Network Defense Service 
Provider by USCYBERCOM/DISA Field Security Operations. The MDA CERT 
received a ``Commendable'' rating (second highest rating possible) and 
was awarded another 3 year Authorization to Operate. Over the last year 
we conducted four Enterprise Cyber Range Environment experiments with 
independent, DOT&E red team penetration testing on the Joint 
Information Operations Range. The purpose of these experiments is to 
better understand the cyber robustness of BMDS capabilities to insider 
threats. MDA also has one scheduled for May 2015. MDA completed 62 
cybersecurity inspections worldwide to ensure DOD and MDA compliance. 
We follow up on these inspections to ensure remediation of any 
identified cyber risks.
    We must build resilient cyber defenses that are capable of 
detecting and mitigating threats without impeding operations in order 
to ``fight through'' the cyber threat. MDA collaborates with the 
Director of Operational Test and Evaluation to conduct cyber 
penetration testing on key missile defense capabilities. We then use 
the results of those tests to conduct risk assessments to prioritize 
cybersecurity improvements, develop mitigation strategies, and improve 
cyber training. We are also working to develop better cyber CONOPS to 
ensure every network defender in every location knows how to quickly 
react to cyber challenges.
    We are working hard to incorporate cybersecurity requirements early 
into our acquisition lifecycle to ensure we are building cybersecurity 
into missile defenses, not just bolting it on after the fact. In 
addition, we are working with our Industry Partners in the Defense 
Industrial Base to ensure they can protect any missile defense program 
sensitive information from getting into the hands of potential 
adversaries. We have seen too many instances where malicious cyber 
actors attempt to exfiltrate information from them, especially from 
their unclassified, commercial networks that have exposure to the 
Internet. We will continue to work with Industry and the FBI to 
identify these issues and raise the costs of this type of behavior to 
those responsible in coordination with National authorities and in 
accordance with policy.
                               conclusion
    This budget balances investment in homeland and regional missile 
defense capabilities while pursuing advanced technology to pace the 
emerging threat. We will do this by improving current system 
capabilities and investing in the most promising technology to reverse 
the adversary's numerical advantage. MDA continues to aggressively 
pursue cost reduction measures through competition, partnering, and 
cooperation. MDA is on track with the Department's schedule for 
financial improvement and audit readiness, ensuring full accountability 
of resources and processes.
    Mr. Chairman, we have several critical developmental and 
operational flight tests coming up this year and next. We will adhere 
to our ``fly before you buy'' approach, testing elements of the system 
to demonstrate they work before we commit to their fielding in order to 
ensure the warfighter will have cost-effective and reliable weapon 
systems. With the successful GMD intercept this past June, continued 
emphasis on GMD reliability and commitment to increase GBI inventory, 
planned RKV investments, and renewed focus on improved tracking and 
discrimination, I believe we are turning the corner with our homeland 
defenses. We remain on track with our EPAA deployments and continue to 
make good progress with our international partners across the globe. I 
am also committed to investing in advanced technologies to defeat the 
threat of the future and to looking for new and innovative ways to 
deliver missile defense capability to protect our Nation, our forward 
deployed forces and our friends and allies at lower cost to the 
government and the taxpayers.
    I look forward to answering the committee's questions. Thank you.

    Senator Cochran. Thank you very much.
    Without getting into the details, I notice that the missile 
test that you mentioned that had been undertaken will be viewed 
as an improvement--indicating improvements that can be made in 
reliability and the functionality of the program. Were you 
generally satisfied with the results, or do you think you are 
going to have to go back to the drawing board in any major way 
in the production of the capability?
    Admiral Syring. Sir, we are very satisfied with the results 
of the flight test. And the way I have characterized it is as a 
necessary first step but not the end. And as you know, we were 
very successful in demonstrating and fixing a very difficult 
engineering problem with vibration of the IMU (inertial 
measurement unit) that took us several years to correct, and 
with first taking a step to a non-intercept test, which we did 
the year before, and then the intercept test, that really 
informed the path and ensured our success in that test. That 
correction will then be flowed to the interceptors that are 
being upgraded and will be part of the 44 by 2017.
    Senator Cochran. Senator Durbin.
    Senator Durbin. Admiral, I am going to submit some 
questions for the record but ask one specific question.
    The Department of Defense is conducting environmental 
impact statements on four potential sites for an East Coast 
ground-based missile defense site. The early indications are 
that the site would cost as much as $4 billion to build. The 
four sites that are being explored are in the States of New 
York, Maine, Ohio, and Michigan.
    Do you believe that an East Coast ground-based missile 
defense site should be a priority investment for our missile 
defense operations?
    Admiral Syring. Not at this time.
    Senator Durbin. If it is not your top priority, what 
investments do you believe are more worthy?
    Admiral Syring. Sir, thank you for the question.
    As I have been consistent over the last several years, our 
top priority--and the combatant commanders will back me up on 
this at NORTHCOM (Northern Command) and STRATCOM (Strategic 
Command)--our top priority gap at this point is sensors and 
discrimination, persistent tracking and discrimination 
capability against the longer-range, more complex threat.
    Senator Durbin. I thank you for that. And I know that there 
has been a lot of speculation and a lot of interest among my 
colleagues about this East Coast missile defense site and maybe 
even some differences between the authorizers and appropriators 
when it comes to this issue. But I hope that we will focus on 
your answer, which talks about the accuracy and reliability of 
the system itself and how that investment is much more 
important for the defense of the United States than expanding 
beyond our current California and Alaska operations.
    Thank you very much.
    Admiral Syring. Thank you, sir.
    Senator Cochran. Senator Shelby.

                      ENVIRONMENTAL IMPACT STUDIES

    Senator Shelby. Admiral, you stated that one of our highest 
priorities is to continue to demonstrate homeland defense 
capability through the ground-based midcourse defense (GMD) 
flight testing. Would you discuss the need to evaluate the 
interceptor site and radar? Senator Durbin just asked you about 
the East Coast site, but anything else.
    Admiral Syring. Yes, sir. The environmental impact studies 
are going on in the four States the Senator mentioned, and that 
work is progressing well, along with the contingency plan that 
if the decision and authorization and appropriation followed 
were made to field an East Coast site, we would be down the 
road in terms of our planning. That will complete probably in 
the mid-2016 timeframe. There is more work we have to do this 
summer at a couple of the sites and then go back through a 
draft review process with the public and then finalize.
    There is no doubt that an East Coast site eventually would 
provide additional battle space for the warfighter, and I have 
been consistent on that in terms of the time to decide. And 
certainly quantities are important as well.
    But the more important investment today----
    Senator Shelby. Today is what we are talking about.
    Admiral Syring. Yes, sir. Is for radar and discrimination 
capability to make the best use of the 44 interceptors that we 
will have by 2017.
    Senator Shelby. In conducting your evaluation of missile 
defense cybersecurity vulnerabilities, which we all know are 
there, it is my understanding the Department of Operational 
Test and Evaluation partnered with the MDA to plan and to 
execute four complex events to examine ballistic missile 
defense vulnerability to cyber attacks. One more test is 
scheduled for May of this year is my understanding. While I 
recognize that you may not be able to speak about all this in 
public today, could you describe generally for the committee 
the importance of continuing to protect our missile defense 
assets against any attacks, including cyber?
    Admiral Syring. Yes, sir. Critically important. And I would 
break our efforts down into three categories. Certainly the 
protection of our operational BMDS system, which I will not go 
into today, but equally important are the protection of our 
cleared defense contractors and all of the work they do for MDA 
and their vulnerability against cyber attack. The final 
category would be what we are doing with our insider threat 
program, which is equally important in terms of the threat to 
the BMDS from the people aspect and that angle.
    The cleared defense contractor. I will start there. For 
classification reasons, I will skip the first one, sir, but I 
can assure you that there are extensive protections in tiering 
and layered defense capability in the operational system 
working closely with U.S. Cyber Command.
    The second part is more acquisition-related and what we do 
to require our defense contractors who do work for MDA to have 
those protections of their information and design that they do 
for us.
    Then finally, as we know, the insider threat can be 
detrimental in terms of information leakage and disclosure. And 
we have a very extensive insider threat program that we stood 
up this year with monitoring and other methods to ensure that 
we understand that part of the threat.
    Senator Shelby. Admiral, in your budget briefing at the 
Pentagon on February 2, I believe, this year, you noted--and I 
quote you--Iran may flight test an ICBM in 2015. Given the 
clear threat that Iran, I believe, poses to our Nation and to 
our allies, would you please discuss what you can in an open 
hearing about the Missile Defense Agency--what you are working 
on to stay ahead of these long-range missile capabilities and 
defense systems? That is part of your job. Is it not?
    Admiral Syring. I will start, Senator, with today. As we 
sit here today, we are protected against the possible threat 
from Iran. And that said, we watch and follow very closely 
their development. And we all know about the space-launched 
vehicle tests that Iran conducted, very public, in their 
attempt to put a satellite into orbit several weeks ago. To me, 
that demonstrated the continued progress in terms of that 
longer range rocket technology guidance system technology. And 
that is what feeds the intelligence estimates that they could 
flight test as early as this year. I think DIA's (Defense 
Intelligence Agency) recent assessment is more likely by 2017.
    Senator Shelby. Thank you. My time is up.
    Senator Cochran. The Senator from Rhode Island, Mr. Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Admiral, thank you for your service and please thank the 
men and women of your command for their service also.
    Admiral Syring. Thank you.

                 SENSORS AND DISCRIMINATION INVESTMENT

    Senator Reed. Just to follow up on a point to make it 
clear, the current configuration of your defense system--would 
it engage missiles coming from Iran? We do not have to have an 
East Coast site to do that. Is that correct?
    Admiral Syring. Yes, sir.
    Senator Reed. And again, following the previous questions 
by my colleagues, the investment in discrimination and tracking 
would enhance our ability to engage any missile coming from any 
direction. Correct?
    Admiral Syring. The sensors and discrimination investment 
that we have made part of this budget is focused in Alaska and 
other parts of the system to provide us the more complex 
capability against the North Korean threat. And I have been 
clear in terms of that is our first focus, and then as that is 
fielded and resources become available, we will certainly talk 
about a similar capability to the East Coast as well.
    Senator Reed. But that can be accomplished through the 
existing sites.
    Admiral Syring. There is certainly a tracking and 
discrimination, albeit not ultimately where we want to be, 
capability of the current sensor network.
    Senator Reed. And also I believe that you are engaged in, 
along with our allies, deploying a system in Europe. Is that 
correct?
    Admiral Syring. Yes, sir.
    Senator Reed. And that system would be specifically focused 
on emerging threats from Iran particularly.
    Admiral Syring. Yes, sir, but the shorter range.
    Senator Reed. Shorter range missiles--that is right--which 
is important.
    One of the points that Admiral Gortney raised as the 
Commander of NORTHCOM--he is actually the operational commander 
of these systems--is that with sequestration, in his words, 
``Because the services can only generate revenue by going in to 
readiness or delaying delivery of a capability, the Missile 
Defense Agency does not have a readiness account that they can 
go to. So they are going to have to go to their new starts. 
They will have to put the long-range discrimination radar, the 
improvements to the kill vehicle and the multi-object kill 
vehicle on hold. It will delay the ability for them to field 
those capabilities.'' So sequestration will hurt you in some 
sense more than other defense agencies.
    Admiral Syring. Sir, there would be a significant impact 
and place in jeopardy the new start programs that I have 
discussed today.
    Senator Reed. You also have a test scheduled in June, and 
as Senator Durbin indicated and my colleagues indicated, the 
last test was sort of a make-or-break for the whole program. 
Can you give us a sense of what is riding on this test? No pun 
intended.
    Admiral Syring. Yes, sir. The test this June is an 
operational test, and it will include operational firing of the 
Aegis Ashore site in Hawaii, along with Aegis ships as well at 
sea. It is not a test of the GMD system this June. We will do 
the test of the homeland defense system later this year in the 
October-November timeframe, and that will be the test of the 
thrusters that I spoke about in terms of fixing once and for 
all the vibration problem with the divert thrusters on the GBI.

                                TESTING

    Senator Reed. And a final question is in all this testing, 
is there a cyber component? Have we reached that point yet, or 
is it still just basically the aerodynamics of the system and 
the other qualities of the system?
    Admiral Syring. There are separate and distinct cyber tests 
that we have conducted in the past, and Senator Shelby 
mentioned several of those with us and DOT&E (Director of 
Operational Test and Evaluation) partnered. And they continue 
to test not only just MDA but the combatant commander cyber 
vulnerabilities extensively. Certainly the thrust of the tests 
that we will be doing is more operational with actual 
warfighters at the consoles and operating the system.
    Senator Reed. But as you point out, the vulnerabilities in 
the system are not just in your agency which is developing and 
fielding the systems. It is actually operators too who at one 
point will make the command decisions to launch or not to 
launch.
    Admiral Syring. Yes, sir, they will.
    Senator Reed. Thank you very much, Admiral.
    Senator Cochran. The Senator from Kansas, Mr. Moran.
    Senator Moran. Mr. Chairman, thank you very much.

                           IRON DOME PROGRAM

    Vice Admiral, good morning. Thank you for your service to 
our country, your presence this morning.
    As the agency seeks to have appropriations for the Iron 
Dome program, would you describe, speak to me as to its past 
success in protecting Israel and its value to the United States 
and then tell me what the next step is, the relationship of 
David's Sling to this effort? Just give me in a sense the big 
picture.
    Admiral Syring. Sir, if I may, sir, I do not want to give 
you actual percentages, but I will say it was highly effective, 
highly successful in the last conflict in terms of Iron Dome's 
performance. It is a classified percentage, and we have the 
confidence of the Israelis not to disclose that.
    That said, we continue--and what the Congress has done to 
provide funds for the Iron Dome has, in large part, built many 
of the batteries and many of the interceptors for that system. 
And it continues to protect the Israeli population in a way 
that cannot be quantified.
    Senator Moran. Would you say that it has met or exceeded 
its expectations, it met its task?
    Admiral Syring. Yes, sir.

                             CYBERSECURITY

    Senator Moran. Let me follow up on maybe questions of 
Senator Reed and Senator Shelby about cybersecurity. Tell me 
the overall structure by which our missile defense system is 
protected from cyber vulnerabilities. Whose responsibility is 
that in addition to yours? How does this agency relate to other 
efforts within our Government to protect ourselves from cyber 
attacks?
    Admiral Syring. As you are familiar, we have a tiering 
structure for cyber protection, and we are closely partnered 
with U.S. Cyber Command at the top tier, and then below that, 
USSTRATCOM has the responsibility with the warfighter and JFCC 
IMD (Joint Functional Component Command for Integrated Missile 
Defense) which is the echelon below them for cyber protection, 
cyber monitoring, and monitoring of cyber vulnerabilities. 
Below that is the agency, and what we provide at our level in 
terms of enclave level protection and protection of design and 
information that flows in and out of MDA.
    Senator Moran. How serious do you consider cyber 
vulnerabilities as an issue for your agency and for our 
country?
    Admiral Syring. Extremely serious.
    Senator Moran. And would you say that things are getting, 
in a sense, quote, any better or are these threats only 
increasing?
    Admiral Syring. I view the threats as increasing, but I 
view what we have done at MDA and with our warfighter 
partners--and we have been through several inspections over the 
last year with excellent results in terms of meeting that 
threat and staying ahead of where we think they may go.
    Senator Moran. So as the threats have increased, so have 
our capabilities to thwart those threats?
    Admiral Syring. Yes, sir.
    Senator Moran. And I suppose the question is do you have 
the belief that we have the capability of increasing that 
defense against those increasing threats.
    Admiral Syring. I do, sir. Without going into classified 
areas, certainly refinement of concept of operations between us 
and the warfighter in terms of tiers of protection, as 
readiness conditions escalate, is what we have to constantly 
change and be prepared for.
    Senator Moran. Is the Missile Defense Agency at the top of 
the list in our country for the greatest level of protection?
    Admiral Syring. I do not know if it is at the top, but it 
certainly is near the top in terms of the warfighter concern 
and the warfighter precedence on the system and reliance on the 
system.
    Senator Moran. Thank you for your testimony.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    The Senator from Hawaii, Mr. Schatz.
    Senator Schatz. Thank you, Mr. Chairman.

                       AEGIS ASHORE TEST FACILITY

    Admiral, thank you for being here. Thank you for your great 
work.
    My colleague in the House from Hawaii has expressed 
interest in making the Aegis Ashore test facility at PMRF 
(Pacific Missile Range Facility) in Hawaii a permanent 
facility. And I want to echo my support for her effort and 
encourage you to seriously consider that as we look at 
defending against threats in the Asia-Pacific region.
    You noted in your remarks that the threat is continuing to 
grow as our potential adversaries field increasingly 
sophisticated ballistic missiles that have further range and 
are more survivable, reliable, and accurate. Last week's 
surface-to-air test by North Korea is another reminder of the 
importance of enhancing our ability to defend our forward-
deployed troops and our allies in the region.
    Without getting into classified information, can you expand 
on your assessment of the ballistic missile threats in the 
Asia-Pacific and how we are ramping up our defenses against 
them?
    Admiral Syring. Yes, sir. The threat from North Korea in 
particular is increasing in capacity, meaning numbers, and 
demonstrated capability. The other thing that we have noticed 
and have been watching--and it has been reported in the open 
press--is the no-notice launch capability that they have been 
demonstrating in terms of demonstrating without notice launch 
of short- and medium-range ballistic missiles for test 
purposes.
    The concern I have, in terms of not just notification of 
launch and the ability to do that in a very short time, is the 
demonstrated increase of capability that we are seeing and the 
need to continue to outpace that with the capability that we 
field on our ships in particular and our THAAD system that is 
deployed on Guam today in terms of constant improvements on the 
ability of our radars and our ships to track and keep track of 
and then discriminate the more complex threats.
    Senator Schatz. If you want to take this for the record or 
to a classified setting, I will understand. But how far along 
are the North Koreans in their process? Because obviously, it 
is going to continue to be a race with MDA. But what I had been 
told maybe a couple of years ago was that they were not 
particularly far along. I understand they continue to make 
progress, but in terms of years, how far out from being capable 
are they?
    Admiral Syring. We assess and the intelligence community 
assessed that they are ready to test an ICBM this year anytime. 
Now, we have not seen the--let me take that classified part for 
the record in terms of what we have seen to either back up or 
discredit that claim.
    Senator Schatz. Okay, thank you.
    And I am encouraged by MDA's partnership with Japan in 
particular to expand deterrence. I am wondering what you can 
share with me about potential cost sharing, and I think you can 
probably talk about that in the context of what is happening in 
Europe as well. But I am interested in where we have made 
progress, but also for my own information, who does the 
negotiating in terms of how costs get distributed and which 
countries where we are partnered. And whether it is MDA that 
does the negotiating or the Office of the Secretary, how does 
all of that get negotiated and how are we doing in that space?
    Admiral Syring. Senator, for Japan--and I am not going to 
give you the actual number. I will give you the percentage. 
Japan contributed roughly one-third of the development cost for 
the SM-3 IIA development program. Those agreements are 
negotiated not just with MDA but they are negotiated with our 
policy and State Department counterparts and their counterparts 
in Japan. Those agreements are then codified and signed, and 
that is what we follow.
    Senator Schatz. Is there room to replicate that agreement 
throughout the Asia-Pacific region and perhaps in Europe as 
well?
    Admiral Syring. Yes, sir, and elsewhere. And, again, that 
would require policy and State Department approval, first for 
the release of whatever we are trying to develop or sell and 
then, two, for the agreements that we have on cost sharing.
    Senator Schatz. Okay. Thank you, Admiral.
    Senator Cochran. The Senator from Missouri, Mr. Blunt.
    Senator Blunt. Thank you, Chairman.
    Thank you, Admiral.

                               IRON DOME

    I know you talked a moment ago about the Iron Dome. If I 
were a careful reader of all the open source material out there 
and actually understood what I was reading when I read all the 
open source material, what would I believe would be the 
difference in the David's Sling to where we are currently or 
where the Israelis are currently with the Iron Dome?
    Admiral Syring. Yes, sir. The Iron Dome is a very short-
range system against counter rockets and mortars and very 
effective, as I stated. David's Sling is expanding that 
capability to higher altitudes and longer ranges.
    Senator Blunt. Does this budget keep us on track to where, 
as a partner in that process, we would want to be to deploy it 
in the hoped-for time?
    Admiral Syring. Yes, sir. The development is progressing. 
We have asked for a steady amount of funding for cooperative 
development with Israel, and we provide system engineering and 
test expertise to Israel. That partnership is very important. 
We are involved in all of the testing that goes on in Israel 
with David's Sling and Arrow. And they are preparing for more 
testing this year and then for full-rate production of the 
system.
    Senator Blunt. Once the tests are completed, the 
implementation, the deploying of the system would come pretty 
quickly after that?
    Admiral Syring. Very quickly.
    Senator Blunt. Very quickly after that?
    On another topic, I noticed in an AP (The Associated Press) 
story this morning that the Russians were moving Iskander 
missiles into their most western part of their Baltic 
territories. What concerns do you have about that?
    Admiral Syring. Sir, it is more of a question for General 
Breedlove, the EUCOM Commander, but the question that I get in 
terms of the Russia aspect--and it applies to what we are doing 
specifically in Poland. The systems that we are deploying in 
Poland in no way were ever designed against Russia. They are 
designed against the ballistic missile threat from Iran. And 
certainly the provocations that you talked about is more 
certainly outside my lane in terms of any defense that we would 
have against that.
    Senator Blunt. Have we done any public forward-deploying in 
the Baltic States or Poland of our systems that people would be 
publicly aware of?
    Admiral Syring. Sir, I would like to take that for the 
record.
    [The information follows:]

    To date there have been no Ballistic Missile Defense System 
deployments to the Baltic States.
    The deployment of ballistic missile defense capabilities to Poland 
was announced in September 2009 in concert with the United States' 
commitment to deploy the President's Phased Adaptive Approach for 
missile defense in Europe (EPAA). A PATRIOT battery deployed to Poland 
for the first time in May 2010. Periodic PATRIOT deployments are 
planned to continue for training and combined exercises with our Polish 
allies.
    The Ballistic Missile Defense Agreement between the United States 
and Poland entered into force in September 2011 and established the 
2018 timeframe for deployment of an Aegis Ashore site in Redzikowo, 
Poland. We are on track to deploy Aegis Ashore to Poland as part of 
EPAA Phase 3.

    Senator Blunt. All right. I would like to get that answered 
for the record.
    The Missile Defense Agency is on path toward the 
emplacement of 44 ground-based interceptors by the end of 2017. 
Are we on track to accomplish that?
    Admiral Syring. Yes, sir.
    Senator Blunt. Thank you, Chairman.
    Senator Cochran. Thank you, Senator.
    Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman, for your 
indulgence.
    Admiral, the Senator from Hawaii a few minutes ago asked 
you about North Korea, and I will get into it just a little bit 
here. You said in your February 2 fiscal year 2000 budget 
briefing at the Pentagon that efforts are underway at the 
Missile Defense Agency, quote, to pace and stay ahead of the 
threat. What do you see now regarding North Korea? Do you see 
any effective alternative to the ground-based midcourse defense 
system for homeland defense against the ICBM threats?
    Admiral Syring. No, sir.
    Senator Shelby. Continuing on the ground-based midcourse 
defense system, your written testimony underscores MDA's 
commitment to fulfill the current OSD requirement to build 44 
ground-based interceptors by the end of 2017 in order to meet 
the threat of ballistic missile attack against the United 
States. How feasible is this requirement, and would you need 
additional funding? You know, you are here today before the 
Appropriations Defense Subcommittee.
    Admiral Syring. Sir, we are on track exactly where we need 
to be in terms of on pace to meet that commitment, and the 
funding that I have requested is adequate to meet that 
commitment.

                              KILL VEHICLE

    Senator Shelby. Reports indicate that MDA's acquisition 
strategy for the redesigned kill vehicle is nearing approval at 
DOD. Could you update this committee on your plans for the 
acquisition process there, when you expect the contract to be 
awarded, and how important is it that we adequately fund the 
redesigned kill vehicle?
    Admiral Syring. Sir, the last answer is extremely critical 
on the need for that kill vehicle to replace the older kill 
vehicles that are in the field that were fielded very rapidly.
    The acquisition strategy planning is going very well, and 
three companies that are critical to that in terms of helping 
us with the design and development of it are Raytheon, Boeing, 
and Lockheed Martin. And they are part of a Government-led 
design authority team that will take steps over the next 2 
years to design with Government approval that kill vehicle. My 
plan, sir, once that design is done and the follow-on GMD 
contract will be to complete production of that kill vehicle in 
the 2018 timeframe.
    Senator Shelby. Thank you.
    I will get into THAAD, terminal high altitude area defense. 
Reports indicate that THAAD batteries designed to intercept 
incoming medium- and long-range ballistic missiles may be 
deployed to South Korea, as well as the Middle East, in the 
near future. It is my understanding that the Missile Defense 
Agency is expected to deliver as many as 48 additional 
interceptors to the Army for a total 155 interceptors delivered 
by the end of 2016.
    The President's budget proposal is $464 million for THAAD 
procurement. Could you speak to the warfighter demand and need 
for operational needs of these batteries given current 
instability in the Pacific and the Middle East and the world?
    Admiral Syring. Yes, sir. We will have four complete 
batteries turned over to the Army by the end of this year. And 
as you know, there is part of one deployed to Guam and future 
deployment decisions under consideration by the warfighter. 
That budget request supports not only continued interceptor 
procurement but also necessary development to keep ahead of the 
threat in terms of what we see for the future.
    Senator Shelby. It goes right to the security of the 
Nation. Does it not?
    Admiral Syring. Yes, sir.
    Senator Shelby. I want to get into the Aegis right now. 
Aegis had a very successful flight test last November--you know 
it well--in which the system simultaneously intercepted two 
cruise missile targets and one short-range ballistic missile 
target.
    The President's budget proposal is $559 million for 
procurement of the Aegis.
    I understand that plans are underway to deploy Aegis Ashore 
in Eastern Europe perhaps in light of recent Russian 
aggression. Could you discuss the importance of protecting our 
allies in Eastern Europe, and how can this committee be helpful 
in supporting your efforts?
    Admiral Syring. Sir, I would just like to reiterate that 
the deployment of the Aegis Ashore site to Eastern Europe was 
not ever about what Russia either was doing then or today. It 
is all about protecting our allies and our deployed forces from 
the threats in the Middle East.
    Senator Shelby. Okay.
    Admiral Syring. And we are absolutely on track to deliver 
Romania by the end of this year and Poland by the end of 2018.
    Senator Shelby. You mentioned earlier about the long-range 
discrimination radar. I understand that the Missile Defense 
Agency issued its final request for proposals for the long-
range discrimination radar in January of this year, and the 
contract award is expected to be later in August perhaps.
    The President's budget proposes $138 million for its 
continued development.
    How important is this space-based tracking and 
discrimination capability as the threat progresses in the 
world?
    Admiral Syring. It is critically important for especially 
what we see in the intelligence estimates for capability of 
North Korea and Iran to develop more complex threats which 
would include decoys and countermeasures and the ability of 
having a long-range sensor that can discriminate the proper 
lethal object for us to intercept.
    Senator Shelby. This gives you an additional tool you did 
not have. Would it not?
    Admiral Syring. Yes, sir.
    Senator Shelby. Thank you.
    Thank you, Mr. Chairman, for your indulgence.
    Senator Cochran. Thank you, Senator.

                             SEQUESTRATION

    Admiral Syring, if sequestration is triggered in fiscal 
year 2016, the Missile Defense Agency's top line would be 
reduced by roughly $1.4 billion, over 18 percent of the total 
budget. This reduction would be applied, as I understand it, 
indiscriminately to each program and project. If reductions 
were applied in a more thoughtful manner, which programs would 
you seek to protect?
    Admiral Syring. Sir, first, Mr. Chairman, the first point I 
would make is we have not received any official guidance from 
the Department in terms of what our sequestration amount would 
be. If it was applied equally, we would take our proportion, 
share of that cut.
    Where I see us having to go with lack of being able to go 
to a readiness account, as Admiral Gortney testified, would be 
to either put on hold or delay the new start capability that we 
have discussed, the radar and the kill vehicle and maybe even 
some of the discrimination improvements that I view as critical 
to keep our Nation safe. And depending on how deep the cuts go 
would be how deep I needed to go into not just the new starts 
but other capability and testing that we are working on outside 
of that. There would be deep ramifications to those cuts if 
they went to that level.
    Senator Cochran. Thank you. It sounds like we want to avoid 
that.
    Admiral Syring. Yes, sir.
    Senator Shelby. Mr. Chairman.
    Senator Cochran. Senator.
    Senator Shelby. Is it possible--I know we have a busy 
schedule, all of us do--to think about meeting the Admiral in a 
classified briefing because I think all of this, what we are 
talking about missile defense and defending our Nation and our 
allies around the world, is very important in a classified 
hearing. It would be up to you as the chairman to call it, but 
I think we would get a lot out of that.
    Senator Cochran. I think you have made a good point, and 
that is a reasonable suggestion, which we will consult with 
other Senators and try to find a time that would be suitable.
    The Senator from Alaska, welcome. We are glad you are here. 
We have run out of questions.

                   GROUND-BASE MISSILE DEFENSE SYSTEM

    Senator Murkowski. Well, I am here to help you out, Mr. 
Chairman. I appreciate you holding over for just a moment.
    This is an important issue for us in the State of Alaska, 
as we host the ground-based missile defense system there at 
Fort Greely. I have had an opportunity to visit with Admiral 
Syring on many occasions. He has had occasion to go up to 
Alaska. He usually comes in the middle of winter. So he is 
tested up there.
    But we pay attention to what is going on from Alaska's 
perspective. We sit closer to North Korea than we would like to 
on many days. So we know very well the importance of a strong 
homeland ballistic missile defense, and we are very proud, 
again, to host the cornerstone of that defense in Alaska. Not 
only do we worry about North Korea, but we worry about Iran. 
And I think you look at the events going on in the world today, 
the justification for maintaining and constantly improving a 
capable, credible, and highly advanced long-range defense 
radar.
    If you could discuss for the committee this morning, 
Admiral, not only the capabilities that the long-range 
discrimination radar site based in Alaska will bring to missile 
defense, but also the current timelines for LRDR and perhaps 
the impact to the timeline if we do not see the fiscal year 
2016 budget approved at the requested level.
    Admiral Syring. Yes, ma'am. The LRDR is critically 
important to where I see the threat from North Korea going in 
the near future with the capability of becoming more complex, 
requiring more interceptors and us and the warfighter needing 
the assurance that we have persistent track and discrimination 
capability against that threat. It is a must.
    Senator Murkowski. I want to ask you to reinforce that 
because some might suggest that this would be nice to have. But 
you are saying this is a must, this is a must-have.
    Admiral Syring. Ma'am, I am reiterating. And what you pay 
us and me and the Missile Defense Agency to do is to keep our 
capability ahead of the threat. And this radar is important to 
give the warfighter that tool and that awareness of the threat 
that the reentry vehicle would pose and where it is amongst 
many other things that will fly along with it. And the radar 
and the discrimination capability that it provides to give the 
warfighter that information to properly intercept the threat is 
vital.
    Senator Murkowski. So it is vital to our national security 
interest.
    Can you speak to the timeline that we are looking at here?
    Admiral Syring. Yes, ma'am. We have actually received 
proposals from the companies last week, and we are in source 
selection and evaluation and anticipate to award before the end 
of this fiscal year.
    Senator Murkowski. Good, good.
    And then perhaps from a bigger threat perspective, I 
mentioned North Korea and how we do pay attention. We watch the 
news. We see what is happening with the number and the 
complexity of the missile tests that we are seeing increase out 
of North Korea.
    Can you just give us your thoughts this morning on North 
Korea and the threats that they pose to our Nation?
    Admiral Syring. If you read the open source reporting and 
news, they continue to test regularly. They continue to test 
without notice. They continue to demonstrate not just increased 
short- or medium-range capacity but capability as well. And all 
of that concerns me in terms of its development and testing and 
its application potentially to the more longer range threats.
    Senator Murkowski. Well, it is a reminder, I think, to us, 
Mr. Chairman, that with so much in the news today--we are 
focused on what is going on in Iran. We are focused on what is 
going on in Syria. We should never ever take our eye off other 
corners of the world where we have individuals and regimes that 
are just potentially very, very volatile.
    Then a final question for you, Admiral. Is this year's 
budget adequate to meet the needs within your agency?
    Admiral Syring. Yes, ma'am.
    Senator Murkowski. Mr. Chairman, thank you for the 
opportunity to ask these questions. And again, Admiral, thank 
you for your leadership in an area where I think, again, we 
want to make sure that we are prepared for whatever that threat 
may be and to always be leading out, leaning forward. Thank 
you.
    Senator Cochran. Thank you, Senator. We appreciate your 
participation in the hearing and your thoughtful questions to 
our witness.
    And to our witness and his colleagues who are here, thank 
you very much for your cooperation and assistance to our 
committee. Your participation and the way you have handled 
questions by members of our committee indicate an understanding 
and a depth and an appreciation of not only the issues that we 
have raised but also the overall importance of what we are 
doing, making sure that we are protecting the security 
interests of the United States. So we thank you for that.

                     ADDITIONAL COMMITTEE QUESTION

    And other members of our committee, as illustrated by our 
senior Senator from Alabama and distinguished friend, we 
appreciate everyone on the committee participating.
    Senators are, of course, permitted to submit additional 
written questions, if we have any, and we would appreciate your 
responding to them within a reasonable time. And we look 
forward to a continuing dialogue with our leadership in uniform 
throughout the fiscal year 2016 appropriations process.
    [The following question was not asked at the hearing, but 
was submitted to the Department for response subsequent to the 
hearing:]
           Question Submitted to Vice Admiral James D. Syring
               Question Submitted by Senator Thad Cochran
    Question. LPD 17 is proving to be an extremely capable ship for the 
U.S. Navy. In fact, the Navy recently down selected the LPD hull form 
for the new LSD Class. Do you believe there is merit in further 
exploring the idea of using the LPD hull form to support national 
missile defense as part of a sea based component? Would you be willing 
to work with the shipbuilder through BMD war games or other analysis to 
better understand the merits of that approach?
    Answer. Yes, the Missile Defense Agency (MDA) believes there is 
merit to examining the feasibility of any capability that could 
potentially increase national ballistic missile defense (BMD) and the 
BMD system architecture. MDA would be willing to work with Industry and 
the U.S. Navy to determine the feasibility and merit of using ship 
variants based on the LPD hull form in potential BMD applications.

                          SUBCOMMITTEE RECESS

    Senator Cochran. The Defense Subcommittee is scheduled to 
reconvene on Wednesday, March 25, at 9 a.m. to receive 
testimony on the Department's budget for the Defense Health 
Program. Until then, the subcommittee stands in recess.
    [Whereupon, at 11:21 a.m., Wednesday, March 18, the 
subcommittee was recessed, to reconvene at 9 a.m., Wednesday, 
March 25.]
</pre></body></html>
